Report No. D-2009-070       April 16, 2009




      Government Purchase Card Controls
 at United States Special Operations Command
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
GPC                           Government Purchase Card
U.S. SOCOM                    U.S. Special Operations Command
U.S. MARSOC                   U.S. Marine Corps Forces, Special Operations Command
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            AR LI NGTON, VIRGINIA 22202-4704



                                                                            April 16, 2009

MEMORANDUM FOR COMMANDER, UNITED STATES SPECIAL
                 OPERATIONS COMMAND
              ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              COMMANDER, MARINE CORPS FORCES, SPECIAL
                 OPERATIONS COMMAND

SUBJECT: Government Purchase Card Contro ls at United States Special Operations
         Command (Report No. D2009-070)


We are providing this report for review and comment. We considered management
comments on a draft of this report in preparing the final report.

Comments from the Acting Assistant Secretary of the Navy (Financial Management and
Comptroller) and the Commandant of the Marine Corps confonned to the requirements of
DoD Directive 7650.3. The Marine Corps agreed with the recommendations. The
Acting Assistant Secretary of the Navy (Financial Management and Comptroller)
disagreed with recommendations C.! , and C.2. We disagree with the Assistant Secretary
of the Navy' s comments on recommendations C.I , C.2, and C.3 and request that the
Assistant Secretary of the Navy reconsider his position and provide additional comments
to this final report. We request his response by May 15, 2009.

Please provide comments that conform to the requirements of 000 Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
AudColu@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the I Signed I symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 329-5868).

                                             fJ~
                                             Patricia A. Marsh
                                                                a !J1Cl~
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-070 (Project No. D2008-D000FJ-0011.000)                                April 16, 2009


               Results in Brief: Government Purchase Card
               Controls at United States Special Operations
               Command
                                                        these actions, the cardholder avoided using
What We Did                                             mandatory contracting office services and
The objective of the audit was to determine             alternate payment methods.
whether the U.S. Special Operations Command’s
use of the Government purchase cards complied           What We Recommend
with applicable laws and regulations. We tested         We recommend the Assistant Secretary of the
Government purchase card transactions at                Navy (Financial Management and Comptroller)
Headquarters and at the subordinate entities. We        credit the rebates to Special Operations Command
reviewed internal controls for compliance with          entities, review the entity and appropriation
applicable laws and regulations.                        sources of all rebates received, and determine
                                                        whether the Department of the Navy may
What We Found                                           appropriately retain the rebates. We recommend
The U.S. Special Operations Command                     that the Commander, Marine Corps Forces,
Headquarters and the Command’s subordinate              Special Operations Command require cardholders
entities had established adequate controls over         and approving officials to follow the proper
the Government purchase card programs to                procedures when using Government purchase
ensure they complied with applicable laws and           cards.
regulations. However, we identified two areas
requiring attention.                                    Management Comments and
                                                        Our Response
First, the Department of the Navy (Financial            The Acting Assistant Secretary of the Navy
Management and Comptroller) inappropriately             (Financial Management and Comptroller) did not
retained $216,800 in rebates earned from the            agree with our recommendations to return all
use of the Government purchase card by the              Government purchase card rebates to the
Naval Special Warfare Command and Marine                U.S. Special Operations Command. The
Corps Forces, Special Operations Command.               Commandant of the Marine Corps agreed with the
Department of the Navy practice required the            recommendations. Its comments were responsive
purchase card provider (the bank) to send all           and met the intent of our recommendations.
rebates generated by cards issued by Naval
contracting offices to the Navy Department.             We disagree with the comments from the Acting
As a result, in FY 2007 and FY 2008, the                Assistant Secretary of the Navy (Financial
U.S. Special Operations Command did not                 Management and Comptroller). Please see the
have the rebate funds available for Special             recommendations table on the back of this page
Operations purposes.                                    and the management comments section for
                                                        finding C.
Second, a Marine Corps Forces, Special
Operations Command cardholder split
transactions to circumvent Government purchase
card acquisition limits. The cardholder acquired
noncommercial group training at a cost of
$72,000 in three separate transactions. By taking

                                                    i
Report No. D-2009-070 (Project No. D2008-D000FJ-0011.000)                April 16, 2009

Recommendations Table
Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Assistant Secretary of the Navy   C.1, C.2, and C.3.
(Financial Management and
Comptroller),

Commander, Marine Corps                                     D.
Forces, Special Operations
Command


Please provide comments by May 15, 2009.




                                            ii
Table of Contents

Results in Brief                                                           i

Introduction                                                               1

       Objectives                                                          1
       Background                                                          1
       Review of Internal Controls                                         2


Finding A. Headquarters, U.S. Special Operations Command Government
Purchase Card Program                                                      3


Finding B. U.S. Special Operations Command Subordinate Entities’ Government
Purchase Card Programs                                                      5


Finding C. Rebates for U.S. Special Operations Command Naval Entities      7

       Recommendations, Management Comments, and Our Response              9

Finding D. U.S. Marine Corps Forces, Special Operations Command Split
Purchase of Training                                                      13

       Recommendation, Management Comments, and Our Response              15

Appendix. Scope and Methodology                                           16


Management Comments

       Department of the Navy (Financial Management
          and Comptroller)                                                19
       Marine Corps and U.S. Marine Corps Forces,
          Special Operations Command                                      27
Introduction
Objective
The objective of the audit was to determine whether the U.S. Special Operations
Command’s use of Government purchase cards complied with applicable laws and
regulations. See the appendix for a discussion of our scope and methodology.

Background
Section 2784, title 10, United States Code requires the DoD Office of Inspector General
to perform periodic audits of the DoD Government Purchase Card (GPC) Program to
identify:

      potentially fraudulent, improper, and abusive use of purchase cards;

      any pattern of improper cardholder transactions, such as purchases of prohibited
       items; and

      categories of purchases that should be made by means other than the purchase
       card to better aggregate purchases and obtain lower prices.

Use of the Government Purchase Card
The Federal Acquisition Regulation (FAR) Subpart 13.2, “Actions at or below the Micro-
Purchase Threshold,” states that the GPC is the preferred method to purchase and pay for
“micro-purchases.” A micro-purchase is an acquisition of supplies or services using
simplified acquisition procedures. FAR 13.301(c), “Government-wide Commercial
Purchase Card,” states that the GPC is used as a procurement and payment tool for micro-
purchases. The micro-purchase threshold during our period of review was $3,000. The
GPC may also be used in excess of the micro-purchase threshold up to $25,000 for
purchases made outside the United States, for use outside the United States, in
accordance with Defense Federal Acquisition Regulation Supplement 213.301.

U.S. Special Operations Command
The U.S. Special Operations Command (U.S. SOCOM) was formed in 1987 to organize,
train, and equip Special Operations forces from the Army, Navy, and Air Force. In 2006,
U.S. SOCOM added Marine Forces and currently has six subordinate command
components: Army Special Operations Command; Naval Special Warfare Command; Air
Force Special Operations Command; Marine Corps Forces, Special Operations Command
(U.S. MARSOC); Joint Special Operations Command; and Joint Special Operations
University.

U.S. SOCOM has procurement authority under section 167, title 10, United States Code;
however, most GPCs used by U.S. SOCOM entities were issued and supported by a
hosting Military Service contracting office. For example, at the Headquarters,



                                           1
U.S. SOCOM, the Air Force contracting office at MacDill Air Force Base, Florida, issued
and supported the GPC. However, the Joint Special Operations Command personnel
used the U.S. SOCOM procurement authority for the GPC.

Audit Process
We performed the audit in two phases. The first phase addressed the GPC Program as
implemented in support of the Headquarters, U.S. Special Operations Command. The
second phase addressed the GPC Programs supporting five subordinate entities: U.S.
Army Special Operations Command, U.S. Naval Special Warfare Command, U.S. Air
Force Special Operations Command, U.S. MARSOC, and Joint Special Operations
Command.

Review of Internal Controls
We did not identify internal control weaknesses in the use of the GPC by the U.S. Special
Operations Command and its subordinate entities.




                                            2
Finding A. Headquarters, U.S. Special
Operations Command Government Purchase
Card Program
Headquarters, U.S. Special Operations Command, effectively managed its Government
Purchase Card Program. We examined 200 purchase card transactions valued at
$626,521. We did not identify any material internal control weaknesses during our
review of the 200 transactions. In general, they were proper, legal, and reasonable, and
satisfied a bona fide need. Therefore, the U.S. SOCOM GPC Program complied with the
applicable regulations governing the use of the card.

Purchase Card Controls
Audit Process
We evaluated the overall control environment for the U.S. SOCOM GPC Program using
the “Department of Defense Government Charge Card Guidebook for Establishing and
Managing Purchase, Travel, and Fuel Card Programs,” January 20, 2006 (DoD
Government Charge Card Guidebook), and Air Force Instruction 64-117, “Air Force
Government-Wide Purchase Card Program,” January 31, 2006. We reviewed the
oversight process by the agency program coordinator. We reviewed the cardholder and
approving official training records to ensure that all training requirements were met.
Additionally, we reviewed documents to determine whether the acquisition was mission
essential. We reviewed the certification and acceptance, property accountability,
cardholder reconciliation, and approving official review processes for 200 GPC
transactions selected.

Annual Reviews
Air Force Instruction 64-117, “Air Force Government-Wide Purchase Card Program,”
required program coordinators to perform annual reviews of their GPC Programs. In
2007, the agency program coordinator for U.S. SOCOM Headquarters cardholders
conducted the reviews of the cardholders’ accounts. The reviews of each account did not
disclose any areas of concern. These reviews showed that the agency program
coordinator had appropriate oversight of the GPC Program for the U.S. SOCOM
Headquarters.

Training
Properly trained individuals are necessary for a successful GPC Program. According to
the DoD Government Charge Card Guidebook, the agency program coordinator is
responsible for overseeing and recording training of all GPC Program participants. Air
Force Instruction 64-117 requires mandatory training courses for participants in its GPC
Program. We reviewed cardholders’ and approving officials’ training files. These
cardholders and approving officials were current in their training.




                                            3
Determination of a Mission-Essential Purchase
We determined whether each transaction was a mission-essential purchase by reviewing
supporting documentation, including the GPC Pre-Approval Purchase Form, vendor
invoice, transaction log, and cardholder statements. We found that all supporting
documentation was available for the 200 transactions, and all purchases met the criteria
of a mission-essential purchase.

Independent Receipt and Acceptance
We found that cardholders generally adhered to the requirement for independent receipt
and acceptance. The only exception to this control was when the cardholder purchased
items at a point-of-sale location. Because items were paid for and received immediately
by the cardholder, there was no independent receipt and acceptance for the items.
Independent receipt and acceptance would not be expected when items are immediately
paid for and received. In all cases, the items were accounted for and the purchases were
considered appropriate.

Physical Control and Accountability Over Pilferable and Other
Vulnerable Property
At U.S. SOCOM Headquarters, we verified, for the sampled transactions, the existence of
items that we considered pilferable property, including office equipment and Global
Positioning System devices. We were able to physically verify the existence and
accountability of sampled pilferable property at Headquarters, U.S. SOCOM.

Cardholder Reconciliation
Cardholders are required to reconcile and approve their monthly statements. The card-
issuing bank provides monthly statements to cardholders and approving officials.
Cardholders appropriately reconciled all monthly statements reviewed, and they approved
their monthly statements, certifying they had made all transactions on the statement.

Approving Official Review
Approving officials are required to approve cardholder monthly statements for purchase
card transactions. We did not find any exceptions to this requirement for the 200
reviewed transactions and the associated cardholder monthly statements.

Conclusion
At U.S. SOCOM Headquarters, internal controls over the use of its GPC Program were
effective. Our review of 200 GPC transactions revealed proper compliance with
applicable regulations and no material internal control weaknesses. Therefore, we are not
making any recommendations.




                                            4
Finding B. U.S. Special Operations
Command Subordinate Entities’ Government
Purchase Card Programs
The subordinate entities of the U.S. Special Operations Command effectively managed
their Government Purchase Card (GPC) programs. At each of the entities, which
included the Army Special Operations Command; Naval Special Warfare Command; Air
Force Special Operations Command; Marine Corps Forces, Special Operations
Command; Joint Special Operations Command; and Joint Special Operations University,
internal controls were effective. These controls included reviews by internal and external
quality assurance personnel, cardholder training, and purchasing procedures for card
transactions. For the transactions we reviewed, cardholders complied with applicable
GPC procedures. 1 However, there was an instance of a U.S. MARSOC cardholder
improperly splitting a purchase into multiple transactions to avoid GPC acquisition
limitations. (We discuss this issue in finding D.)

Government Purchase Card Controls
Internal Reviews
At each subordinate entity, we evaluated the internal reviews of the GPC Program. The
reviews of the cardholder accounts did occasionally find issues with GPC transactions.
For example, an internal review at the Naval Special Warfare Command found three
instances of questionable transactions. The problems were addressed and appropriate
actions were taken to correct the deficiencies. The reviews showed that the respective
agency program coordinators had appropriate oversight of the GPC Program at each of
the subordinate entities.

External Reviews
At each subordinate entity, we reviewed the external reviews of the GPC. None of the
external reviews at the subordinate entities found any major issues with GPC
transactions. The reviews by the external organizations showed that the respective
agency program coordinators had appropriate oversight and controls in place to
effectively manage the GPC Program at each of the subordinate entities.

Training
The DoD Government Charge Card Guidebook requires the agency program coordinator
to be responsible for overseeing and tracking training of all GPC Program cardholders
and approving officials. GPC instructions require mandatory training courses for
participants in the GPC Program. We reviewed cardholders’ and approving officials’


1
 At the Army Special Operations Command, we did not perform transaction testing because its Inspector
General and Internal Review offices were performing significant internal reviews of its transactions and
procedures.


                                                    5
training files at each of the subordinate entities. The cardholders and approving officials
were certified in all the required training and were current in their training.

Government Purchase Card Procedures
Independent Receipt and Acceptance
We found that cardholders adhered to the requirement for independent receipt and
acceptance, but we found exceptions to this control. Because most cardholders made
point-of-sale purchases, the exceptions were expected. For example, at the Air Force
Special Operations Command, a cardholder took special-issue military uniforms for his
personnel to a vendor to have patches sewn onto the military uniforms. The cardholder
paid for and received the services for his personnel. The cardholder made the purchase
and signed off as the receiver with no other certifying official’s signature on the receipt.
Although this is not considered independent receipt and acceptance, it is normal for the
cardholder to receive purchased items at the point-of-sale because the items are paid for
and received immediately. In this case, the cardholder signed for the item, and as such,
independent receipt and acceptance were not expected.

Approving Official Review
Approving officials are required to approve GPC transactions. For example, for the GPC
transactions we selected at the Marine Corps Forces, Special Operations Command, the
documentation indicated a preapproval of the purchases by a responsible official. We did
not find any exceptions to this requirement at any of the subordinate entities.

Conclusion
The U.S. SOCOM subordinate entities had effective internal controls over their GPC
Programs. Our review of GPC documentation and internal controls revealed general
compliance with applicable regulations and no material internal control weaknesses.
Therefore, we are not making any recommendations.




                                              6
Finding C. Rebates for U.S. Special
Operations Command Naval Entities
The Department of the Navy, Office of Financial Management and Comptroller
inappropriately retained $216,800 in rebates earned from the use of the Government
purchase card by U.S. Special Operations Command funded entities. The Department of
the Navy procedures did not have the rebates credited to the U.S. SOCOM or its entities.
The Navy practice required the GPC provider (the bank) to send all rebates generated by
cards issued by Naval contracting offices to the Department of the Navy. As a result, in
FY 2007 and FY 2008, U.S. SOCOM did not have the rebate funds available for Special
Operations purposes.

U.S. Special Operations Command Funds
Purpose Statute
Section 1301(a), title 31, United States Code, commonly known as the Purpose Statute,
states: “Appropriations shall be applied only to the objects for which the appropriations
were made except as otherwise provided by law.” The use of funds for a purpose other
than that for which the funds were appropriated is a violation of the Purpose Statute.

Special Operations Purpose
Congress, under section 1311 of Public Law 99-661, amended section 161, title 10,
United States Code to establish a specific budgeting and funding process for Special
Operations forces. The Secretary of Defense was to create a new budget category that
would integrate Special Operations forces into the DoD Future Years Defense Plan. The
budget category and resource program would become known as “Major Force Program -
11 [Special Operations].” Through this program, Congress and the Office of Secretary of
Defense provided the operating funds to U.S. SOCOM. This resource program was
included in the appropriations provided by Congress and considered a Special Operations
purpose. U.S. SOCOM used the funds to pay for its operations and passed funding to its
subordinate entities, such as the Naval Special Warfare Command and U.S. Marine Corps
Forces, Special Operations Command. The funds provided by DoD to Special
Operations Forces used the Treasury Index Symbol “97.”

Subordinates
U.S. SOCOM provided all the operating funds to the Naval Special Warfare Command
and the majority of operating funds for U.S. MARSOC. From these funds, the Naval
Special Warfare Command and U.S. MARSOC used the GPC to make purchases. These
purchases supported Special Operations purposes.

Source of Government Purchase Cards
GPCs for the U.S. SOCOM’s Military Service component-related entities were provided
by the Military Service’s hosting organizations’ contracting offices. For example, a local
Naval contracting office in San Diego, California, provided the GPCs for the Naval


                                            7
Special Warfare Command. The contracting office at Camp Lejeune, North Carolina,
provided the cards for U.S. MARSOC. The cards were used under the hosting
organization’s policies. Those two entities applied Navy policies and practices in using
the cards.

Rebates
Under the General Services Administration master contracts with GPC vendors, the
U.S. Government receives a rebate based on the volume of purchases and timeliness of
payments to the vendor. In FY 2007, the Naval Special Warfare Command generated
about $163,700 in rebates, and U.S. MARSOC generated about $7,300, for a total of
about $171,000. In the first quarter of FY 2008, the Naval Special Warfare Command
generated about $43,400 in rebates, and U.S. MARSOC generated about $2,400.

Navy Government Purchase Card Rebate Practice
The Department of the Navy obtained its GPCs from CitiBank under a General Services
Administration master contract. The Department of the Navy required the card vendor to
credit the rebates to the Department of the Navy, Office of Financial Management and
Comptroller. In contrast, under Army- and Air Force-hosted programs, rebates from the
cards were credited to the cardholders’ accounts. Under the Navy practice, the rebates
from purchases with cards issued by Naval contracting activities were credited to the
overall Department of the Navy instead of the cardholders’ account. Therefore, for
U.S. SOCOM entities using the GPC under Navy practices, the rebates were credited to
the Department of the Navy. U.S. SOCOM had intended to use the rebates for Special
Operations purposes, but could not as the Navy retained the rebates.

From Treasury Index 97 to 17
Under the appropriations and funding process, the U.S. Navy used Treasury Index
Symbol “17.” These were funds intended for operations of the Navy and its entities,
excluding Special Operations purposes. U.S. SOCOM entities used Treasury Index “97.”
The effect of the Navy practice was that U.S. SOCOM’s “97” money was turned into
Department of the Navy “17” money. Under section 1301 (a), title 31, United States
Code, by converting “97” funds into “17” funds, the Navy violated the Purpose Statute of
appropriations guidance. As a result, funds provided by U.S. SOCOM to two of its
Service component organizations and intended for Special Operations purposes were
diverted to the Department of the Navy.

Further Effect of the Practice
We did not determine whether the Navy’s practice affected entities or appropriations
other than U.S. SOCOM. However, we believe that the Navy should review its GPC
Program to determine whether similar cases have occurred elsewhere in the Navy’s
Program.

Conclusions
A Department of the Navy practice regarding GPC rebates led to its retaining
U.S. SOCOM funds. As a result, U.S. SOCOM could not use the funds to support


                                            8
Special Operations. In FY 2007, U.S. SOCOM lost the use of about $171,000. These
were funds that should have been used for Special Operations purposes, but were retained
by the Department of the Navy.

Recommendations, Management Comments, and
Our Response
C.1. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller) return all FY 2007 and FY 2008 Government
purchase card rebates resulting from U.S. Special Operations Command funding to
the U.S. Special Operations Command.

C.2. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller) establish a procedure to ensure that future
Government purchase card rebates generated from the U.S. Special Operations
Command and other non-Navy funds are returned to the appropriation against
which the payments were initially charged. In this case, those rebates generated
from U.S. Special Operations Command funds should be credited to the U.S. Special
Operations Command.

Commandant of the Marine Corps and U.S. Marine Corps Forces,
Special Operations Command Comments
The Commandant of the Marine Corps and U.S. MARSOC agreed with
Recommendations C.1 and C.2. Regarding Recommendation C.2, U.S. MARSOC
recommended that the Navy contract be modified to allow rebates to be credited directly
to the cardholder accounts.

Acting Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller) did
not agree with Recommendations C.1 and C.2 and provided identical comments to both.
The Acting Assistant Secretary stated that Section 8067 of Public Law 110-116 provided
statutory authority for the Department of the Navy’s practice of crediting all purchase
card rebates to the Operation and Maintenance, Navy account. The Navy further stated
that legislative history of the statute permits the Navy to retain the rebates and that the
source of the funds did not affect the Navy’s retention. The Navy questioned U.S.
SOCOM’s interest in the rebates by stating:

       As a final matter, in the context of the “authorized purpose” issue, we are concerned
       that DODIG’s assertion at page 8 of the draft report that “[The funds retained by the
       Navy] were funds the U.S. Special Operations Command had intended for special
       operations purposes, but were instead obtained and retained by the DON [Department
       of the Navy]”, misrepresents SOCOM’s interest in the subject rebates. SOCOM had
       not requested a return of the money nor considered the possibility until it was raised in
       the course of the DODIG audit. It appears, therefore, that until this audit began, there
       was an absence of any reliance by SOCOM on the Purchase Card rebates.




                                                    9
The Navy stated that it bore the administrative cost of a purchase card program to the
benefit of U.S. SOCOM.

       Various DON organizations oversee and manage the Purchase Card program for the
       Navy and the Marine Corps. These organizations issue and maintain DON Purchase
       Card policy, provide training, ensure bank compliance with the contract, and provide
       day to day operation support. The administrative support cost of these government
       and contract personnel is borne by the DON and afforded to these SOCOM entities
       as a part of the basic program management. The SOCOM entities derive specific
       benefits from being a part of the DON Purchase Card Program funded by operations
       appropriations.

Our Response
Section 8067 of Public Law 110-116 says:

       SEC. 8067. Beginning in the current fiscal year and hereafter, refunds attributable to the
       use of the Government travel card, refunds attributable to the use of the Government
       Purchase Card and refunds attributable to official Government travel arranged by
       Government Contracted Travel Management Centers may be credited to operation and
       maintenance, and research, development, test and evaluation accounts of the Department
       of Defense which are current when the refunds are received.

The provision permits the Navy to keep the Navy’s money. The section does not permit
or imply that the Navy may keep anyone else’s money. The cards in the hands of Naval
Special Warfare Command and U.S. MARSOC personnel were funded by and used for
U.S. SOCOM.

OMB Circular A-123 provides that unless specific statutory authority exists allowing
refunds to be used for other purposes, funds must be returned to the appropriation or
account from which they were expended. Section 8067 does allow the rebates to be used
for other purposes by allowing the rebates to be credited to Operation and Maintenance
(O&M) or Research, Development, Test, and Evaluation (RDT&E) accounts of DoD.
For example, under Section 8067, if the original payment was made from a procurement
account, the rebate could be credited to an O&M or RDT&E account of DoD. Section
8067 is silent on allowing one DoD component to credit its own account when the
original payment was made from an account from another DoD component. DoD
provided the funding under Treasury Index 97 to U.S. SOCOM to use for U.S. SOCOM
purposes. Members of the Navy as well as the Army, Air Force, and Marine Corps, are
assigned to U.S. SOCOM to support the U.S. SOCOM mission. Section 8067 fails to
provide the Navy with specific or general authority to retain the rebates in question for
Navy purposes. In retaining the rebates for its own use, the Navy is an unauthorized
recipient of the rebates and is diverting funds from DoD.

The Navy stated that it had authority to retain rebates regardless of whose funds
generated the rebates. A plain reading of the text of Section 8067 and the legislative
history of prior provisions similar to Section 8067do not provide support for the Navy’s
claim that it has specific authority to retain U.S. SOCOM or any other DoD entity’s
money. Prior legislation, Government Accountability Office decisions, and established
congressional controls have not provided the Navy or anyone else the authority to retain


                                                   10
another entity’s rebates. The other military services supporting U.S. SOCOM operations
were not retaining U.S. SOCOM money, and there is not a basis for the Navy to do so.
Other DoD entities have rebates credited to the cardholders’ accounts. The Navy sweeps
up all rebates into a centralized Navy account. The Navy’s peculiar practice, while
permissible within the Navy for Navy funds, essentially allows the Navy to give with one
hand and take away with another. However, the Navy does not have authority to apply
that practice to another entity’s funds. The Navy needs to cease the practice with other
entities’ funds. The Navy needs to establish a procedure to return rebates to other
entities’ cardholders, as was the intent of our recommendations. Also, the Navy needs to
return rebates generated during the past 2 years.

The Navy argued that it shoulders the burden of the GPC program; that U.S. SOCOM
had not demanded the return of the rebates; and DoD IG misrepresented U.S. SOCOM’s
interest. None of these factors is a valid argument on the issue. The Navy assumed the
burden of supporting U.S. SOCOM entities, but it is not required to assume the burden
(and failed to quantify that burden). No other supporting service claims rebates as an
offset for the burden. U.S. SOCOM lost control of its funds because of the Navy’s
practice. The lack of a claim is not justification for an unauthorized retention.
Additionally, DoD IG is tasked with review of DoD funding and whether that funding is
used in accordance with statutory requirements. Therefore, we have authority to address
this issue.

The overarching issue is that the Navy is retaining another entity’s funds without
authority to do so. Therefore, we conclude that the funds should be returned to the
U.S. SOCOM.

C.3. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller) review the entity and appropriation sources of all
rebates received and determine whether the Department of the Navy may
appropriately retain the funds.

Commandant of the Marine Corps and U.S. Marine Corps Forces,
Special Operations Command Comments
The Commandant of the Marine Corps and U.S. MARSOC agreed.

Acting Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller)
agreed. He stated, ASN (FM&C) reviewed the entity and appropriation sources to ensure
the DON [Department of the Navy] may appropriately retain the funds.




                                           11
Our Response
The Acting Assistant Secretary of the Navy (Financial Management and Comptroller)
agreed with Recommendation C.3. However, because he did not agree with
Recommendations C.1. and C.2., the Navy did not meet the intent of any of our
recommendation.

We request the Acting ASN (FM&C) reconsider our recommendations and provide
additional comments to the final report.




                                         12
Finding D. U.S. Marine Corps Forces,
Special Operations Command Split Purchase
of Training
A U.S. Marine Corps Forces, Special Operations Command cardholder split a
U.S. MARSOC requirement into multiple transactions to avoid Government purchase
card acquisition limitations. To obtain training for a group of Marine Corps personnel, a
U.S. MARSOC cardholder acquired a noncommercial training course and split the
$72,000 cost into three transactions. The actions were taken to avoid using contracting
office services and alternate payment methods. As a result, the U.S. MARSOC
cardholder engaged in an inappropriate acquisition action, exceeded purchase limits, and
potentially deprived the Government of the benefits of competition.

Single Purchase Limits
To obtain the lower cost goods and services the Government needs from commercial
vendors, the FAR has established the “simplified acquisition” or “micro-purchase”
process. The FAR has exempted these purchases from various laws and clauses of the
Anti-Kickback Act, Miller Act, and Solid Waste Disposal Act required of higher valued
purchases. The GPC Program was established under the micro-purchase provisions of
the FAR. However, the exemptions come with limitations. Generally, cardholders in the
United States are restricted to making purchases that are less than $3,000. If the amount
of goods and services needed exceeds the $3,000 purchase limit, the purchase must be
performed using other methods. These methods follow the provisions of various
acquisition laws and must be executed by a warranted contracting officer. Most
cardholders are not warranted contracting officers, but general operating personnel who
have provisional acquisition authority from a contracting officer.

A cardholder may not split a requirement into multiple transactions to circumvent a dollar
cost limit. A “split purchase” is making multiple transactions to fulfill a single
requirement to avoid the purchase limit or avoid using other contracting or payment
methods. Splitting a requirement; that is, making a “split purchase,” is an inappropriate
contracting action. By splitting a requirement, a cardholder potentially deprives the
Government of the benefits of competition or avoids other Government procurement
policies.

To implement the GPC Program and single purchase limits established by the FAR, the
Navy issued Navy Supply Instruction (NAVSUPINST) 4200.99, “Department of the
Navy (DON) Policies and Procedures for the Operation and Management of the
Government-Wide Commercial Purchase Card Program (GCPC),” October 13, 2006.
Chapter 1, “Purchase Card Program Policy,” of the Navy Instruction states that: “The
purchase card shall be used to make open market purchases for supplies and services not




                                           13
to exceed $2,500 [now $3,000 2 ] and construction not to exceed $2,000.” Further, the
Navy Instruction states:

        The purchase card may be used as a method of payment in conjunction with other contracting
        methods above the micro-purchase threshold for the following categories
                                 ·         ·        ·         ·        ·
            (h) The purchase card shall be used as a method of payment to pay for training requirements
            using the DD 1556 (Certification of Training [now the Standard Form 182, “Authorization,
            Agreement and Certification of Training” 3 ]) and valued at $25,000 and below.

The U.S. Marine Corps is an entity within the Department of the Navy and is to follow
Navy instructions. U.S. MARSOC used GPCs issued through a Marine Corps
contracting office and used the cards under the Navy instructions.

Training Requirement
In FY 2007, U.S. MARSOC had a requirement to train a group of more than 20 Marines
in advanced surveillance operations. A vendor, Tactical Support Equipment, Inc., offered
such a course and listed the price of the commercial off-the-shelf course at more than
$30,000 for 1 to 10 students, plus more than $2,000 for each additional student.
U.S. MARSOC selected Tactical Support Equipment to provide the training. However,
U.S. MARSOC required the vendor to modify the course content and change the location
for part of the training from the vendor’s site in North Carolina to a site in Nevada. As a
result, the training course was no longer a publicly offered, open-market course.

The Payments
The total vendor’s price to U.S. MARSOC for the course was $71,780. A
U.S. MARSOC cardholder paid the vendor on January 10, 2008. The cardholder
payments for the training were $23,490, $23,890, and $24,400. By making three
payments, the cardholder avoided the $25,000 limit for purchasing training on the GPC.
U.S. MARSOC personnel believed that they could use the GPC to purchase training
costing less than $25,000 from a public vendor.

Navy Supply Instruction 4200.99 requires cardholders to use the GPC to pay up to $3,000
for a purchase of open-market supplies and services, such as training. If the cost exceeds
$3,000, the Navy Instruction requires another acquisition method to be used. According
to the Navy Instruction, the GPC can be used as a method to pay for training costing
more than $3,000 and less than $25,000 and acquired through a contracting action, such
as an indefinite-delivery, indefinite-quantity contract. The U.S. MARSOC cardholder
was not a warranted contracting officer and was not authorized to establish a contract
with the vendor.



2
  U.S. General Services Administration, Federal Acquisition Service, Smart Bulletin No. 002,
January 18, 2007, increased the micro-purchase threshold limit to $3,000. This was made effective in the
Navy by Purchase Card Policy Notice 7, March 6, 2007.
3
  Navy’s Purchase Card Policy Notice 15, November 29, 2007, “Cancellation of DD Form 1556,” gave
notice of the implementation of the Standard Form 182.


                                                   14
By using the GPC, the U.S. MARSOC cardholder avoided using the contracting office’s
services and other forms of payment. In this case, the vendor informed us that it had
indefinite-delivery, indefinite-quantity contracts with two other Special Operations
entities.

The cardholder exceeded the purchase authority and engaged in an inappropriate
acquisition action. As a result, the Government potentially did not receive the benefits of
a proper acquisition action, such as competition.

Conclusion
U.S. MARSOC made multiple transactions to avoid GPC acquisition limitations and
engaged in an inappropriate acquisition action.

Recommendation, Management Comments, and Our
Response
D. We recommend that the Commander, Marine Corps Forces, Special Operations
Command direct cardholders and approving officials to follow the proper
procedures when using the Government purchase card. Specifically, cease the
splitting of purchases to avoid using the contracting office’s services.

Commandant of the Marine Corps and U.S. Marine Corps Forces,
Special Operations Command Comments
The Commandant of the Marine Corps and U.S. MARSOC agreed. By direction of the
Commandant of the Marine Corps, U.S. MARSOC stated it had not intentionally
circumvented the contracting process. It has appointed a training manager to ensure
proper procedures are followed. U.S. MARSOC offered minor editorial changes to the
report, which we incorporated.

Our Response
The Commandant of the Marine Corps and U.S. MARSOC actions met the intent of the
recommendation.




                                            15
Appendix. Scope and Methodology
We conducted this performance audit from September 2007 through October 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provided a reasonable basis for our findings and
conclusions based on our audit objective.

We performed the audit in two phases. The first phase addressed the GPC Program as
implemented in support of the Headquarters, U.S. Special Operations Command. The
second phase addressed the GPC programs supporting the U.S. Army Special Operations
Command; U.S. Naval Special Warfare Command; U.S. Air Force Special Operations
Command; U.S. Marine Corps Forces, Special Operations Command; Joint Special
Operations Command; and Joint Special Operations University. At each of the entities,
we reviewed the general internal controls. These controls included determining reviews
by internal and external quality assurance personnel, cardholder training, procedures for
card transactions, and the purchase approval processes.

For the first phase, we obtained a database of U.S. SOCOM Headquarters’ GPC
transactions from the DoD Office of Inspector General Data Mining Directorate, which
obtained the database from the Defense Manpower Data Center. The transactions were
from October 1, 2006, through September 27, 2007. The universe consisted of 5,955
transactions valued at $4,704,537.79 from 168 different cards. We judgmentally selected
200 transactions (valued at $626,521.41) from 35 different cards. We obtained and
reviewed source documents for the 200 GPC transactions in our sample. The source
documents included contractor invoices and GPC receipts, receiving reports, GPC
monthly statements, purchase logs, and other documents that were relevant to the
transactions in our sample.

For the second phase, we obtained transaction data from the relevant agency program
coordinators at the Naval Special Warfare Command, Air Force Special Operations
Command, U.S. MARSOC, Joint Special Operations Command, and Joint Special
Operations Command University. We reviewed the databases, and we judgmentally
selected samples of transactions for further review. We obtained and reviewed source
documents that included contractor invoices and GPC receipts, receiving reports, GPC
monthly statements, purchase logs, and other documents that were relevant to the
transactions in our sample.

At the Army Special Operations Command, we did not perform transaction testing
because its Inspector General and Internal Review offices were performing significant
internal reviews of its transactions and procedures.

We judgmentally selected the samples to include large-dollar purchase transactions,
transactions with potentially problematic vendors, and other unusual data elements. The



                                           16
transactions in our sample should not be interpreted as representative of all U.S. SOCOM
GPC transactions. The results cannot be projected to the universe of transactions.

Use of Computer-Processed Data
We received computer-processed data for the U.S. SOCOM Headquarters from the
DoD IG, Data Mining Directorate. For the U.S. Naval Special Warfare Command;
U.S. Air Force Special Operations Command; U.S. MARSOC; Joint Special Operations
Command: and Joint Special Operations University, we received computer-processed
data from the agency program coordinators.

During the review, we established reliability by comparing the data to source
documentation, such as receipts, credit card statements, approval documents, and
contractual documents. The comparison disclosed that data were sufficient to support the
conclusions.

Use of Technical Assistance
The DoD IG Data Mining Directorate assisted with the audit. For the U.S. SOCOM
Headquarters, the Directorate provided us with GPC transactions and lists of cardholders
and approving officials. The Directorate also identified potentially questionable
transactions that we considered in developing our sample.

Prior Coverage
During the last 5 years, no prior coverage has been conducted on the U.S. Special
Operations Command’s use of the Government purchase card.




                                           17
18
Acting Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments




                    Click to add JPEG file




                                   19
Click to add JPEG file




               20
Click to add JPEG file




               21
Click to add JPEG file




               22
Click to add JPEG file




               23
Click to add JPEG file




               24
Click to add JPEG file




               25
Click to add JPEG file




               26
Commandant of the Marine Corps Comments




                 Click to add JPEG file




                                27
Click to add JPEG file




               28
Click to add JPEG file




               29
Click to add JPEG file




               30
